NO. 20-_____

In the
Supreme Court of the United States
DANIEL FLORES,

Petitioner,
v.
CHRISTIAN PFEIFFER, WARDEN,

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI

ORLY AHRONY, ESQ.

COUNSEL OF RECORD

AHRONY APPEALS LAW GROUP
401 WILSHIRE BLVD, 12TH FLOOR
SANTA MONICA, CA 90401
(310) 743-7830
ORLY@AHRONYAPPEALS.COM

COUNSEL FOR PETITIONER

SEPTEMBER 11, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
QUESTIONS PRESENTED
Petitioner Daniel Flores is an innocent young man
indefinitely incarcerated for murder. The government
purposely charged Flores with a low-level drug crime in
order to place him in an adjoining cell to a highly paid
and experienced confidential informant. The informant
claimed to be a high-ranking member of the Mexican
Mafia—a well-organized, ruthless prison gang—in
order to coercively elicit a confession from Flores for a
murder case in which Flores was a major suspect. By
alternating Mexican Mafia threats to assassinate Flores
with promises to rescind the assassination order only
if Flores confessed to murder, the informant induced a
false confession from Flores, which formed the entire
structure of the prosecution’s case.
In allowing the Government to place a jailhouse
informant in an adjacent cell to that of Flores, and by
directing the informant to threaten Flores with assassination, this decision moves the California courts and
the Ninth Circuit Court of Appeals into conflict with
this Court’s decisions in Arizona. v. Fulminante, 499
U.S. 279, 282 (1991), along with related Supreme Court
and Circuit Court cases. Further, a contradiction
specifically arises with the California courts from their
own law in Dominguez v. Stainer, No. CV 12-8280 AG,
2014 WL 1779546 (C.D. Cal. Apr. 30, 2014); where a
confession induced by the same informant as in Flores
was deemed to be involuntarily and the case remanded
for retrial without the confession. The Questions
Presented are:
1. Are a defendant’s Fifth and Fourteenth Amendment due process rights violated by the placement of
a paid confidential informant in an adjacent cell who is

ii
directed to threaten the defendant with assassination
by the Mexican Mafia in order to elicit a confession?
2. Are a defendant’s Sixth and Fourteenth Amendment right to counsel violated and circumvented where
the state charges and holds a defendant in custody for
a minor crime in order to position a paid, confidential
informant posing as a high-ranking Mexican Mafia
member, adjacent to the defendants’ cell for the purpose
of eliciting a confession on an uncharged major crime?

Note: The Other Supreme Court and Circuit cases in conflict with
this decision include Maine v. Moulton , 474 U.S. 159 (1985),
United States v. Henry , 447 U.S. 264 (1980), Choi Chun Lam
v. Kelchner, 304 F.3d 256 (3d Cir. 2002).

iii
PARTIES TO THE PROCEEDINGS
The parties to the proceeding in the United
States Court of Appeals for the Ninth Circuit were:
Petitioner
●

Daniel Flores

Respondent
●

Christian Pfeiffer, Warden

iv
LIST OF PROCEEDINGS
United States Court of Appeals for the Ninth Circuit
No. 18-55344

Daniel Flores v. Christian Pfeiffer
Date of Final Judgement: March 17, 2020
Denial of Rehearing: April 23, 2020
_________________
United States District Court,
Central District of California
No: CV 13-03934 JLS (AFM)

Daniel Flores v. R. Barnes
Date of Final Judgement: March 6, 2018
_________________
California Supreme Court
No. S207728

People v. Flores
Petition for Review Denied: February 13, 2013
_________________
Court of Appeal of the State of California,
California Second Appellate District Division Six
No. B231789

People v. Flores
Date of Final Judgement: November 29, 2012

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDINGS ........................ iii
LIST OF PROCEEDINGS ......................................... iv
TABLE OF AUTHORITIES .................................... viii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL PROVISIONS........................... 2
INTRODUCTION ....................................................... 3
STATEMENT OF THE CASE .................................... 5
STATEMENT OF THE FACTS ................................. 6
A. Pre-Trial/ Arrest ............................................... 6
B. Flores’ Confession ............................................ 6
C. Velasquez’s Confession .................................... 9
D. The Evidence at Trial ...................................... 9
E. California Court of Appeal Opinion .............. 10
F. Central District Court of California Ruling .. 12
G. Ninth Circuit Denial ...................................... 12
REASONS FOR GRANTING THE PETITION ....... 13
I.

A CONFESSION TO MURDER HAS BEEN
COERCED AND IS INADMISSIBLE UNDER THE
FIFTH AND FOURTEENTH AMENDMENT
WHERE A CONFIDENTIAL INFORMANT, WHO
POSED AS A HIGH-RANKING MEXICAN MAFIA
MEMBER, RESCINDS AN ASSASSINATION

vi
TABLE OF CONTENTS – Continued
Page
ORDER ONLY IF THE DEFENDANT CONFESSES TO THE MURDER. ................................. 13
A. The Law..................................................... 13
B. Flores’ Conviction Must Be Overturned ... 20
II. THE GOVERNMENT CIRCUMVENTS THE SIXTH
AND FOURTEENTH AMENDMENT RIGHT TO
COUNSEL WHERE IT CHARGES THE DEFENDANT, A MURDER SUSPECT, FOR AN UNRELATED
MINOR OFFENSE TO ELICIT A MURDER
CONFESSION BY PLACING A CONFIDENTIAL
INFORMANT IN AN ADJACENT CELL WHO
POSES AS A HIGH-RANKING MEXICAN MAFIA
MEMBER AND THREATENS THE DEFENDANT
WITH ASSASSINATION. ...................................... 21
CONCLUSION.......................................................... 36

vii
TABLE OF CONTENTS – Continued
Page
APPENDIX TABLE OF CONTENTS
FEDERAL OPINIONS AND ORDERS
Memorandum Opinion of the United States Court
of Appeals for the Ninth Circuit
(March 17, 2020) ................................................. 1a
Judgment of the United States District Court
Central District of California
(March 6, 2018) ................................................... 4a
Report and Recommendation of United States
Magistrate Judge Alexander F. MacKinnon
(September 18, 2017).......................................... 5a
Rehearing Denial Order of the United States Court
of Appeals for the Ninth Circuit
(April 23, 2020) ................................................. 36a
STATE COURT OPINION
Opinion of the Court of Appeal of the State of
California Second Appellate District Division
Six (November 29, 2012) .................................. 38a
SUPPORTING DOCUMENT IN FEDERAL COURT
Transcribed Recording Between Confidential
Informant Bracknell and Daniel Flores
(March 6, 2008) ................................................. 52a
DOMINGUEZ CASE DOCUMENT
Transcribed Recording Between Confidential
Informant Bracknell and Ramon Dominguez
(February 2008) ................................................ 65a

viii
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Arizona. v. Fulminante,
499 U.S. 279 (1991) ..................................... passim

Chapman v. California,
386 U.S. 18 (1967) ............................................ 20

Choi Chun Lam v. Kelchner,
304 F.3d 256 (3d Cir. 2002) ....................... passim

Colorado v. Connelly,
479 U.S. 157 (1986) ........................................... 13

Dickerson v. United States,
530 U.S. 428 (2000) ........................................... 13

Dominguez v. Stainer, No. CV 12-8280 AG,
2014 WL 1779546 (C.D. Cal. 2014) ............ passim

Kuhlmann v. Wilson,
477 U.S. 436 (1986)...................................... 30, 32

Maine v. Moulton,
474 U.S. 159 (1985) ................................... passim

Malinski v. New York,
324 U.S. 401 (1945) ........................................... 35

McNeil v. Wisconsin,
501 U.S. 171 (1991) ..................................... 21, 22

Meraz v. Pfeiffer, No. CV 16-1955 KS,
2017 LEXIS 216304 (C.D. Cal. 2017) ... 18, 19, 21

Miranda v. Arizona,
384 U.S. 436 (1966) ............................................ 25

Moran v. Burbine,
475 U.S. 412 (1986) ............................................ 22

ix
TABLE OF AUTHORITIES – Continued
Page

Palko v. Connecticut,
302 U.S. 319 (1937) ........................................... 35

Rochin v. California,
342 U.S. 165 (1952) ..................................... 22, 35

Schneckloth v. Bustamonte,
412 U.S. 218 (1973)............................................ 13

Snyder v. Massachusetts,
291 U.S. 97 (1934) ............................................. 35

State v. Moulton,
481 A.2d 155 (1984) ........................................... 29

Texas v. Cobb,
532 U.S. 162 (2001) ................................... passim

United States v. Crawford,
372 F.3d 1048 (9th Cir. 2004) ........................... 13

United States v. Henry,
447 U.S. 264 (1980) ................................... passim

United States v. Massiah,
377 U.S. 201 (1964) ................................... passim

United States v. Miller,
984 F.2d 1028 (9th Cir. 1993) ........................... 13

Withrow v. Williams,
507 U.S. 680 (1992) ........................................... 13
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. V ........................................ passim
U.S. Const. amend. VI ...................................... passim
U.S. Const. amend. XIV .................................... passim

x
TABLE OF AUTHORITIES – Continued
Page
STATUTES
28 U.S.C. § 1254(1) ..................................................... 1
28 U.S.C. § 2254 .......................................................... 5
Cal. Pen. Code §§ 187, subd. (a)/189 ........................ 5
Cal. Pen. Code §§ 664/187, subd. (a) .......................... 5

1

PETITION FOR A WRIT OF CERTIORARI
Mr. Daniel Flores (hereinafter “Flores”), an inmate
incarcerated at Kern Valley State Prison in Delano,
California, by and through Orly Ahrony, Ahrony
Appeals Law Group, respectfully petitions this Court
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Ninth Circuit.

OPINIONS BELOW
The decision of the Ninth Circuit Court of Appeals,
unpublished No. 18-55344 (March 17, 2020), is reprinted in the Appendix (App.) at 1a-3a. The district court’s
opinion, CV 13-03934-JLS (AFM) (March 6, 2018) and
magistrate report and recommendation (September 18,
2017) are reprinted at App.4a-35a. Further, the decision
of the California Court of appeals opinion, B231789 is
reprinted at App.38a-51a.

JURISDICTION
The judgment of the Court of Appeals was entered
on March 17, 2020. A timely petition for rehearing
and rehearing en banc was denied on April 23, 2020.
App.36a-37a. Flores invokes this Court’s jurisdiction
under 28 U.S.C. § 1254(1), having timely filed this
petition for a writ of certiorari.

2

CONSTITUTIONAL PROVISIONS
United States Constitution, Amendment V:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the
Militia, when in actual service in time of War or
public danger; nor shall any person be subject for
the same offense to be put twice in jeopardy of life
or limb; nor shall be compelled in any criminal case
to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of
law; nor shall private property be taken for public
use, without just compensation.
United States Constitution, Amendment VI:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein the
crime shall have been committed, which district
shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining
witnesses in his favor, and to have the assistance
of counsel for his defense.
United States Constitution, Amendment XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or

3
enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

INTRODUCTION
Petitioner Flores is an innocent man indefinitely
incarcerated for murder because a mercenary, highly
experienced confidential informant posed as a highranking Mexican Mafia member to threaten petitioner
Flores with death to obtain a false, coerced confession
from him. Settled case law and our Constitution
establish that such statements are inadmissible.
Here, the informant was placed in adjacent cell
and accused Flores of performing a drive-by shooting,
a grave violation of Mexican Mafia rules. The gang’s
penalty for such a violation is death. The informant
also ominously told Flores the victim was a nephew of
a high-ranking Mexican Mafia member. The informant
promised to rescind an attack on Flores by Mexican
Mafia members only if Flores convinced him that he did
not commit a drive-by shooting and divulged details
of the shooting. To save his life and appease the
informant, Flores made a false statement to him.
This informant used the same coercive tactics on
Flores’ codefendant Jose Velasquez. Both confessions
were improperly admitted at trial over defense objection. At trial, no physical evidence linked Flores to the
crime. Further, none of the eight prosecution witnesses

4
identified Flores as the culprit. The prosecution heavily
relied on the confessions in their opening and closing
statements and Flores was convicted.
While Flores was being prosecuted, similarly situated defendant Dominguez faced murder charges in a
different case. The same informant from Flores’ case
used identical techniques to obtain a coerced confession
from Dominguez. Despite overwhelming evidence
against Dominguez, the Central District of California
overturned the conviction because Dominguez’s confession was coerced pursuant to Arizona v. Fulminante.
Arizona. v. Fulminante, 499 U.S. 279, 282 (1991).
Fulminante held that a defendant’s confession to a
confidential informant that he committed an uncharged
murder was coerced, where the informant, a fellow
inmate, promised to protect Fulminante from other
inmates who suspected him of killing his stepdaughter,
but only if the defendant shared the details of the
crimes with the informant. Ibid. To preserve uniformity among the courts, this Court should reverse Flores’
conviction and remand the matter to the trial court.
After Flores made a coerced confession to avoid
assassination by the Mexican Mafia, he was charged
with murder and two attempted murders. The prosecution deliberately charged Flores with an unrelated
low-level drug charge for the sole purpose of eliciting
a confession to murder through threats made by the
paid informant. This was a deliberate circumvention of
Flores’ right to counsel. Such a premeditated violation
by the government makes a mockery of our Constitution, as the government has an obligation not to
circumvent the protection afforded by the Sixth
Amendment right to counsel. Thus, Flores due process

5
rights have been violated and this Court should grant
relief in order to alleviate the injustice.

STATEMENT OF THE CASE
Flores was charged in 2008 in Ventura County
Superior Court. In December of 2010 he was convicted
by jury of one count of first-degree murder ((Cal.
Pen. Code, §§ 187, subd. (a)/189), and two counts of
attempted murder (§§ 664/187, subd. (a)), with gang
and firearm allegations found true. Flores was sentenced to prison for life without the possibility of
parole. Flores appealed to the California Court of
Appeal, arguing that the confession should have been
suppressed. In an unpublished decision filed November
29, 2012, the appellate court affirmed the judgment.
App.38a-51a. On February 13, 2013, the California
Supreme Court summarily denied Flores’ Petition for
Review.
On May 8, 2013, Flores filed a pro se 28 U.S.C.
§ 2254 habeas corpus petition with the Central District
Court of California. The petition argued that his
conviction was obtained by his involuntary confession.
Flores, through the undersigned, amended his petition
to also argue that his codefendant’s virtually identical
confession was illegally obtained and raised a Massiah
violation. On March 6, 2018, the District Court relied
on the California Court of Appeal’s opinion to deny
relief with prejudice. App.22a-24a.
Flores’ request to the Ninth Circuit Court of
Appeals for a certificate of appealability was granted
on September 27, 2018. Upon submission of the briefs,

6
the court set oral argument for March 6, 2020, but
then cancelled the order. The court denied relief on
March 17, 2020. It held that Flores’ confession was
not coerced. The Circuit Court failed to examine the
correct decision in Dominguez v. Stainer, which was
the basis of Flores’ argument. Citing Texas v. Cobb,
it rejected the argument that Flores’ right to counsel
was violated. A timely petition for rehearing and
rehearing en banc was denied on April 23, 2020.

STATEMENT OF THE FACTS
Flores respectfully incorporates the facts of the
counts of conviction set forth in the California Court
of Appeal Opinion, case number B231789.
A.

Pre-Trial/ Arrest

In February of 2008, shortly after the attempted
murders of Rafael and Jesus R., and the murder of
Armando Sepulveda Jr., Detective Dan Hawes wiretapped Flores’ phone calls. There were over 9,000 calls
caught in the tap, none of which referenced the murder
and attempted murders. Flores, Jose Velasquez, and
Brandon Arauz were the main suspects. Law enforcement arrested Flores on March 1, 2008, for a misdemeanor drug charge unrelated to the homicide
investigation.
B.

Flores’ Confession

Flores, who was twenty-two years old at the time
of his arrest, had previously been incarcerated in the
California Youth Authority, but had never been held

7
in county jail. Unbeknownst to Flores, officers placed
an experienced informant in the cell next to Flores’ and
instructed the informant to initiate police monitored
conversation with Flores about the homicide and
attempted homicide. The two men were separated by a
cell wall, but were able to converse through the toilets.
The informant claimed to be a high-level Mexican
Mafia member. He told Flores that he was aware Flores
had shot a few people, one of whom was related to
another high-ranking Mexican Mafia member and that
the Mexican Mafia believed the shooting may have been
a drive-by shooting. The informant told Flores that
the Mexican Mafia had prohibited drive-by shootings
and retaliated against anyone who committed one.
Flores understood that the retaliation was death.
The informant warned Flores that he was on the
Mexican Mafia’s [hit] “list” and that a group of Mexican Mafia members “were waiting for him.” The
informant told Flores that the Mexican Mafia had
assigned him to “run court” on Flores to determine if
Flores had committed a drive-by shooting. Specifically,
the informant stated that he was the was the one
who could “clear his name” and call off the attack if
Flores divulged the details of the shooting.
Confronted with this threat, Flores denied committing a drive-by, but said that he exited the vehicle
where suspect Arauz shot the victim. The informant
promised to call off the attack on Flores if Flores
described the shooting in detail. The informant
admonished Flores not to lie and reminded Flores that
he was “playing with the big boys now.” In response,
Flores provided additional details about the shooting
and explained why he had targeted his victim.

8
Acknowledging that Flores was being forthcoming,
the informant replied that he was going to rescind
the planned attack on Flores. The informant then
continued to press for details, reminding Flores of
the consequences if he refused to “be straight” about
the shooting. The informant then proceeded to ask
pointed questions, and Flores answered each question.
The informant continually reminded Flores that the
informant was “run[ning] court” on Flores, that everything had been put “on the table” and that Flores
would be safe as long as he told the truth about the
shooting. The informant stressed that he was the
keyholder, and that he would “send a kite up” absolving
Flores to the other Mexican Mafia members awaiting
Flores’ arrival. Flores answered each question.
Once the informant obtained the coerced confession, he thanked Flores for “being straight” with him.
He then promised to send a signal to the Mexican Mafia
that Flores had been truthful, and assured Flores that,
because of his honesty, he would be safe.
During the conversation, Flores exhibited palpable
signs of fear. He stated that he was panicked and
inquired on multiple occasions, “How bad his name
really was” and when the “kite” would be sent to the
higher-ups. Flores worried that the guards could hear
their conversation. The informant, demonstrating his
ostensible experience and expertise in the system,
assured Flores that the “guards can’t hear because that
would be entrapment.” After Flores was convinced
that he should not fear for his life, he and the informant shared stories about people they knew in common.
During trial, the recording of the conversation
between Flores and the informant was played to the

9
jury and a transcript of the conversation was admitted
into evidence.
C.

Velasquez’s Confession

The same illegal tactics were used by the same
informant on Flores’ co-defendant Velasquez. Out of
fear that the Mexican Mafia were “waiting for him”
and that “there was a green light” on him, Velasquez
denied the drive-by and divulged details of the shooting.
D.

The Evidence at Trial

The prosecution relied almost exclusively on the
confessions and played them in their opening and
closing statements. Besides the “confessions,” there
was little or no evidence to suggest Flores had any
connection with the murder or attempted murders.
Flores was never identified by any of the eight prosecution witnesses as the culprit. Nor did DNA or other
forensic evidence link Flores to the crimes.
The prosecution demonstrated that Flores was a
Colonia Chiques gang member and that the murder
weapon was found at a Colonia Chiques “hangout.”
However, dozens of other gang members besides Flores
were at the hangout on the night it was found.
The prosecution showed that Flores was a passenger in Velasquez’s vehicle, which may have been used
in the shooting. However, the vehicle was never
positively identified as such. During another traffic stop,
Flores was a passenger in the vehicle on February 18,
2008. There was a gun found in the vehicle, but it was
not the murder weapon.

10
E.

California Court of Appeal Opinion

The California Court of Appeal opined that the
confession was “voluntarily made.” App.46a. It
accepted the trial court’s ruling that that the confession
resulted from an “acceptable law enforcement ruse,”
not “coercion which caused the defendant’s will to be
overborne.” Id. The Court also distinguished Flores
from Fulminante. (Arizona v. Fulminante, supra, 499
U.S. 279, 288), claiming that Flores was in no immediate danger from the informant, and there was no
evidence that Flores was in fear of physical harm.
The record contradicts the California Court of
Appeal’s assertions that Flores was not in fear, was
willing to speak about the shooting, defended his
criminal conduct freely, and that his will was not
overborne. In making these assertions, the court turned
a blind eye to the context of the conversation between
Flores and the informant. The informant credibly
claimed to be a Mexican Mafia member and essentially
stated that he alone would decide whether Flores
lived or died. This was a terrifying threat to Flores’
life similar to the threat made in Fulminante. The
informant also explained that he would call off the
planned attack on Flores only if he came clean about
the details of the shooting. Unsurprisingly, terrified
Flores responded by supplying the requested details.
Further, Flores could not have placated the informant by denying any role in the shooting. Flores was
not confronted with an objective fact-finder willing to
give him the benefit of the doubt as to his innocence.
Instead, he was confronted by whom he reasonably
believed was a high-ranking member of the Mexican
Mafia who told Flores that the Mexican Mafia understood Flores shot the victim in a “drive-by.” Indeed, the

11
informant made clear to Flores that he could cancel
an imminent attack by Mexican Mafia members only
if Flores convinced the informant that the homicide
was not a drive-by shooting. As such, it is objectively
unreasonable to believe that Flores could deny
committing a drive by shooting, while simultaneously
maintaining his innocence or withholding the fact
that he exited the car to shoot the victim. To be sure,
Flores did not shy away from admitting his role in
the shooting, but he had no reason not to do so. He
reasonably believed that his life was in peril because
the Mexican Mafia understood that he committed, a
drive-by shooting. Thus, Flores had been coerced to
believe that he must admit a homicide and defend
the manner in which it was committed. Explaining
that he exited the car before shooting the victim was
Flores’ his only hope of averting assassination.
The California Court of Appeals’ finding that
there was no evidence of vulnerability on Flores’ part
is belied by the record. Previously, Flores had only been
incarcerated in a juvenile facility, never in county jail.
Flores’ circumstances must be seen in sharp contrast
with the defendant in Fulminante, who was an “experienced habitue of prisons.” Arizona v. Fulminante,
supra, 499 U.S. at pp 286 and 306. In this case, the
informant successfully exploited Flores’ inexperience
in county jail by emphasizing that he was a veteran
of the prison system and by admonishing Flores that
he was “playing with the big boys now.”
Flores continued to inquire when the informant
would send a “kite” to clear his name and how bad
his name was with the Mexican Mafia. He even stated
he was “panicked.” Thus, contrary to the California
Court of Appeals’ conclusion, Flores was vulnerable

12
to the informant’s tactics and reasonably believed he
was under a credible threat of mortal harm.
F.

Central District Court of California Ruling

The Central District of California1 erred in denying Flores’ relief. App.5a. It improperly relied on the
California Court of Appeal opinion. Further, the
Magistrate unreasonably held that Flores’ confession
was not coerced by asserting that the informant’s
statements to Flores were ambiguous. App.28a. There
was no ambiguity. It was well understood that a driveby is a serious violation of Mexican Mafia dictates,
that a “job” to assassinate Flores had been conditionally ordered, that the informant was “running court,”
and if Flores did not convince the informant that he did
not commit a drive by, the higher ups will kill him.
There is no difference between the language the
informant used in Dominguez and in this case. App.
52a, 65a. To save his own life, each of Flores and
Dominguez immediately denied that he committed a
drive-by and then described in detail how they exited
the vehicle to shoot the victim. Thus, the Magistrate’s
reasoning was flawed.
G.

Ninth Circuit Denial

The Ninth Circuit also erred in relying on the
California Court of Appeal’s finding that Flores’ confession was voluntary. App.2a-3a. As thoroughly
discussed above, the California Court of Appeal
opinion that Flores’ confession was voluntary was
contrary to settled precedent in Arizona v. Fulminante.
1 A different magistrate presided over the Flores matter than
Dominguez in the Central District of California.

13

REASONS FOR GRANTING THE PETITION
I.

A CONFESSION TO MURDER HAS BEEN COERCED AND
IS INADMISSIBLE UNDER THE FIFTH AND FOURTEENTH AMENDMENT WHERE A CONFIDENTIAL
INFORMANT, WHO POSED AS A HIGH-RANKING
MEXICAN MAFIA MEMBER, RESCINDS AN ASSASSINATION ORDER ONLY IF THE DEFENDANT
CONFESSES TO THE MURDER.
A. The Law

In determining whether a statement is voluntary,
this Court requires consideration of “the totality of all
the surrounding circumstances—both the characteristics of the accused and the details of the interrogation.”
Dickerson v. United States, 530 U.S. 428, 434, (2000)
(quoting Schneckloth v. Bustamonte, 412 U.S. 218,
226 (1973)). These circumstances include “not only the
crucial element of police coercion, Colorado v. Connelly,
479 U.S. 157, 167 (1986),” but also “the length of the
interrogation, its location, its continuity, the defendant’s
maturity, education, physical condition, and mental
health.” Withrow v. Williams, 507 U.S. 680, 693 (1992)
(some internal citations omitted).
Taking an involuntary statement from a defendant
violates the guarantee of substantive due process in
the Fifth Amendment, applicable to the states through
the Fourteenth Amendment. See United States v.
Miller, 984 F.2d 1028, 1030 (9th Cir. 1993). A confession
is involuntary if coerced “ . . . by psychological pressure.”
See United States v. Crawford, 372 F.3d 1048, 1060
(9th Cir. 2004). A credible threat of physical violence

14
is sufficient. Arizona v. Fulminante, supra, 499 U.S.
279, 287. Coercion can be applied by a confidential
informant who is acting as a government agent. See
Fulminante, 499 U.S. at 287. Threats of physical
violence can be indirect. Lam v. Kelchner, 304 F.3d 256,
264 (3rd Cir. 2002).
1. Dominguez v. Stainer, No. CV 12-8280
AG, 2014 WL 1779546 (C.D. Cal. Apr.
30, 2014)
Approximately at the same time Flores was
charged with his crime, a similarly situated defendant
named Dominguez was charged in a different murder
case. The same informant used the exact same tactics
in obtaining a coerced confession in each case.
Dominguez was also convicted and the judgment
upheld on appeal. The Central District of California
overturned Dominguez’s conviction because his confession was coerced in violation of the Fifth Amendment,
and thus inadmissible under Arizona v. Fulminante.2
In both cases, the same informant was intentionally placed in an adjacent jail cell and began speaking
to each defendant through a toilet vent. After the
informant made clear that he was “running court”3
as a high-ranking Mexican Mafia Politic, he accused
each of committing a drive-by. The informant elicited
2 The District court remanded the matter to the trial court
where the prosecution declined to retry Dominguez for murder.
Instead, Dominguez plead to a lesser count and agreed to serve
a term of 12 years.
3 This a term of art used when a highly ranking gang member
interrogates another individual in order to find out certain
details to determine punishment with respect to life or death.

15
each illegal confession by asserting that he and the “big
boys” from the “Mexican Mafia” understood that each
defendant committed a drive by. A drive-by shooting
is a severe violation of the Mexican Mafia rules, and
their names could only be “cleared” if they admitted
“that they got out of the vehicle” and explained in
detail how the incident unfolded. App.52a, 64a. Flores
and Dominguez knew that violating the rules of the
Mexican Mafia meant death.
Not only did the conviction of each of Flores and
Dominguez mirror the other, but each was similar to
the other defendant in age, mental development, and
educational capacity. They belonged to the same gang,
had been previously held in the California Youth
Authority, but never in county jail.
The only difference between the two cases is that
in Dominguez an abundance of physical evidence was
presented at trial, including gunshot residue and
eyewitness testimony connecting the defendant to the
crime. In stark contrast, there was no physical evidence
connecting Flores to the crime. The prosecution essentially had nothing more than the coerced confession.
2. Arizona. v. Fulminante, 499 U.S. 279,
282 (1991)
The controlling case from this Court regarding
confessions obtained through threats made by a
confidential informant is Arizona v. Fulminante, supra,
499 U.S. 279, 282. Fulminante’s eleven-year-old stepdaughter was brutally murdered in the desert.
Fulminante came under suspicion, but no charges
were filed against him. He left Arizona and was later
convicted in New Jersey on a federal charge of
possession of a firearm by a felon. While incarcerated

16
for that offense, he became friends with another inmate
named Sarivola, a paid, confidential FBI informant.
Sarivola learned that other inmates were treating
Fulminante roughly because a rumor that he killed a
child in Arizona. Sarivola, had been instructed to find
out more about Fulminante’s stepdaughter’s death.
Sarivola offered to protect Fulminante from the other
inmates, but only if Fulminante would share the details
about the crime. Fulminante confessed that he took his
stepdaughter to the desert where he sexually assaulted
and murdered her. After his release, Fulminante made
a similar confession to Sarviola’s fiancé.
Based on the confessions, Arizona prosecuted
Fulminante for murder. At trial, Sarivola and Sarviola’s
then wife testified to the confessions. Fulminante was
convicted and sentenced to death.
The Arizona Supreme Court ruled that the confession had been coerced because Fulminante faced a
credible threat of severe physical violence unless he
confessed, and thus both his Fifth and Fourteenth
Amendment rights been violated. The government
appealed.
On certiorari, this Court affirmed and found:
For the purposes of the Fourteenth Amendment’s due process clause, the individual’s will
had been overborne in such a way as to render
his first confession the product of coercion—
that is, an involuntary confession—where (a)
the parties agreed that the informant had
acted as an agent of the government when
the informant had questioned the individual,
(b) the Arizona Supreme Court’s finding
would be accepted that there had been a

17
credible threat of physical violence, absent
protection from the informant, unless the
individual confessed, and (c) additional facts
supported the finding of coercion, with
respect to (i) the individual’s intelligence,
physical build, and problems in adapting to
prison life, and (ii) the informant’s position
as the individual’s friend . . . Ibid.
Although, Fulminante conceded that he never “indicate[d] that he was in fear of other inmates nor did
he ever seek [the informant’s] ‘protection,’” he nevertheless argued that his confession was coerced. Id. at
306. This Court accepted the state court’s conclusion
that a credible threat of physical violence, absent
protection from his friend, motivated the defendant
to confess. Accordingly, the confession was inadmissible.

Fulminante is distinguishable from the facts of
Flores’ case only in that the nature of the threat here
is more extreme than in Fulminante. Flores was
presented with the following options: confess in detail
about the shooting or face the wrath of Mexican
Mafia members who were “waiting for [him].” While
the informant in Fulminante only vaguely offered to
protect Fulminante from others, the informant here
declared that he could either halt the planned attack
on Flores, or refuse to do so, thereby unleashing on
Flores Mexican Mafia members who were waiting to
kill him. In other words, the informant made it clear
that he held Flores’ life in his hands. Flores’ only
hope of safety was to convince the informant that
Flores had not committed a drive-by shooting. Only
in response to these threats did Flores admit that he
had shot the victim after exiting the vehicle. Simply

18
put, the informant’s statements to Flores constitute a
direct and imminent threat of death. As such, they go
far beyond the indirect threat of harm in Fulminante.
(Fulminante, 499 U.S. at 306.)
3. Meraz v. Pfeiffer, No. CV 16-1955 KS,
2017 LEXIS 216304 (C.D. Cal. Dec. 12,
2017).
In 2007—a year prior to when Dominguez and
Flores were charged—defendant Meraz was convicted
in Ventura County Superior Court based largely on a
confession obtained by the same confidential informant
used in Dominguez’ and Flores’ cases. Meraz v. Pfeiffer,
No. CV 16-1955 KS, 2017 LEXIS 216304 (C.D. Cal.
Dec. 12, 2017).
As with Flores, while Meraz was a suspect in a
murder investigation, he was charged with an unrelated
crime and placed in a jail cell adjacent to that of the
informant.4 The informant was instructed to discover
the details of the shooting for which Meraz was
under investigation. The informant introduced himself
as a Mexican Mafia member. He offered to vouch for
Meraz, thereby bolstering Meraz’s reputation among
other inmates, if he divulged details about the shooting.
Id. at 32. Meraz admitted that he “knew what he was
doing” when he killed the victim in retaliation for the
shooting of one of his “homies.” Id. at 47.
Meraz argued that his counsel was ineffective
for failing to seek suppression of his confession as
coerced. Id. at 32. The District Court found there was
no coercion. It contrasted the facts in that case with
4 Meraz confessed to the shooting on multiple occasions including to his co-defendant.

19
those in Dominguez by stating that there was no
language that the informant promised to call off an
attack if Meraz revealed information regarding the
shooting. Id. at 37-38.
Unlike Flores and Dominguez, Meraz was neither
warned that a “job was happening,” nor that his “name
was out there,” nor that the informant was “running
court” as a Mexican Mafia politic. There was no contingency to call of an attack if Meraz confessed to the
crime. On his own volition, Meraz shared details of how
he committed the crime. Id. at 40. In contrast, Flores
confessed on condition that the informant would call
off a deadly attack. Flores’ confession was thus
coerced. This Court must overturn Flores’ conviction.
4. Choi Chun Lam v. Kelchner 304 F.3d
256, 259 (3d Cir. 2002)
In Lam, at issue in the appeal of the denial of
habeas relief was whether the Pennsylvania Superior
Court was objectively unreasonable in ruling that
Lam’s responses to undercover government agents
were voluntary, and, thus, not in violation of Lam’s
due process rights. Lam gave incriminating responses
after the agents threatened her with violence. The
agents had posed as Chinese gang members seeking
to collect $15,000 due in a murder-for-hire of Lam’s
former husband’s wife. The district court overturned
the conviction and held that Lam’s responses were
involuntary because she was undeniably afraid of the
agent’s threats. The court also suppressed the statements made by her alleged co-perpetrator Xie after
he learned what the agents had told Lam. The court
held that Xie’s statements were the poisoned fruit of
Lam’s coerced statements. The 3rd Circuit Court of

20
Appeals affirmed the suppression of Lam’s statements,
but reversed the district court’s decision to suppress
Xie’s statements as the fruits of her statements. Choi
Chun Lam v. Kelchner, 304 F.3d 256, 259 (3d Cir.
2002).
The threat to Flores was more aggravated than
the threat to Lam because the informant who coerced
Flores was not merely a gang member; he was a high
ranking Mexican mafia member. Flores was facing
certain and imminent death for violating the Mexican
mafia rules. In contrast, the threats to Lam were vague:
the case would be exposed and Lam would be sorry.
Lam’s holding further supports the conclusion that
Flores’ statements should have been suppressed and
his conviction reversed.
B. Flores’ Conviction Must Be Overturned.
Here, the impact of Flores’ confession was profound—his conviction for murder and the attempted
murders. Flores confession was a detailed account of
how and why he committed the charged crime. Moreover, the confession was not incriminating only when
linked with other evidence; rather, if accepted as
true, it was the sum and substance of the prosecution’s
case. And, because the confession was played for the
jury during the prosecutor’s opening statement and
closing argument, Flores had no defense, other than to
argue that the confession was unreliable because it
was coerced. However, the coerced confession should
have been suppressed and Flores never should have
faced trial. As the error was of constitutional dimension,
the state must be prove beyond a reasonable doubt that
the error was harmless. Chapman v. California, 386
U.S. 18, 36 (1967). That is certainly not possible.

21

Dominguez, Fulminante, Meraz, and Lam establish that coerced confessions should be suppressed as a
violation of the right to due process. To maintain
uniformity of decisions and to adhere to stare decisis,
this Court should overturn Flores’ conviction.
II.

THE GOVERNMENT CIRCUMVENTS THE SIXTH AND
FOURTEENTH AMENDMENT RIGHT TO COUNSEL
WHERE IT CHARGES THE DEFENDANT, A MURDER
SUSPECT, FOR AN UNRELATED MINOR OFFENSE TO
ELICIT A MURDER CONFESSION BY PLACING A
CONFIDENTIAL INFORMANT IN AN ADJACENT CELL
WHO POSES AS A HIGH-RANKING MEXICAN MAFIA
MEMBER AND THREATENS THE DEFENDANT WITH
ASSASSINATION.

This Court has consistently held that “the Sixth
Amendment right [to counsel] . . . is offense specific.
It cannot be invoked once for all future prosecutions, for
it does not attach until a prosecution is commenced,
that is, at or after the initiation of adversary judicial
criminal proceedings—whether by way of formal
charge, preliminary hearing, indictment, information,
or arraignment.” Texas v. Cobb, 532 U.S. 162, 167168 (2001), (quoting McNeil v. Wisconsin, 501 U.S.
171 (1991) internal quotation marks omitted.)
However, it is necessary to state a new rule for
the right to counsel in the context of coerced confessions
from criminal suspects who had no access to counsel.
Law enforcement and prosecutors have learned to
circumvent the standards set in Massiah5 and its
5 The relevant Sixth Amendment principle was first articulated
in 1964 in United States v. Massiah; The defendant was accused
of possession of narcotics, and released on bail. Unbeknownst to
him, government agents had struck a deal with his co-defendant

22
progeny, depriving defendants of their right to counsel.
Coercing a defendant’s confession is a grave violation
of foundational principles of decency, fairness and
justice, and thus is a violation of substantive due
process. “[Substantive] due process of law is a summarized constitutional guarantee of respect for those
personal immunities which, as Mr. Justice Cardozo
twice wrote for the Court, are “so rooted in the
traditions and conscience of our people as to be
ranked as fundamental, or are implicit in the concept
of ordered liberty.” Rochin v. California, 342 U.S. 165,
169 (1952) (internal citations and quotation marks
omitted) As such, this Court would not be expanding
the right to counsel by reversing Flores’ conviction,
but only confirming its intended application.
This Court has reasoned that since the ability to
obtain uncoerced confessions is an unmitigated good,
society would be harmed if uncoerced confessions are
suppressed. “Admissions of guilt resulting from valid
Miranda waivers” “are more than merely desirable;
they are essential to society’s compelling interest in
finding, convicting, and punishing those who violate
the law.” McNeil, 501 U.S. at 181, quoting Moran v.
Burbine, 475 U.S. 412, 426 (1986), (internal quotation
marks omitted.)
However, when the defendant is coerced into
confessing to an uncharged crime, the credibility of all
to allow them to install a radio transmitter in his car and listen
in on their conversation. This court held that the defendant’s
“Sixth Amendment rights were violated by the use in evidence
against him of incriminating statements which Government agents
had deliberately elicited from him after he had been indicted
and in absence of his retained counsel.” United States v. Massiah,
377 U.S. 201 (1964).

23
confessions and the integrity of the criminal justice
system is threatened and weakened. For example:
The defendant is a main suspect in a murder investigation. The investigating officers charge a defendant
with a low-level crime, with the sole intent of eliciting
a confession for an uncharged offense. They place an
experienced confidential informant posing as a highranking Mexican Mafia member in an adjoining cell.
The informant warns the defendant that he has the
power to call off his assassination only if the defendant
confesses to a murder. The defendant does not know
he can assert his right to counsel because he believes
that he is speaking to a Mexican mafia member and not
a government agent of officer. The defendant cannot
ask anyone for help or guidance. The psychological
pressure on this defendant is immense. The government has deliberately circumvented the defendant’s’
right to counsel by purposely choosing not to file
charges in order to obtain a coerced confession. This
was not intended by our Constitution and is outside
the bounds of substantive due process.
While this Court has slightly touched upon this
scenario is Moulton, a more concrete rule is necessary
to avoid future injustice. Maine v. Moulton, 474 U.S.
159 (1985). Where the police coerce confessions for
uncharged offenses through credible threats of death,
such that defendants cannot exercise or invoke their
right to counsel? The Constitution compels that such
confessions be suppressed.
Relevant case law is discussed below:
1. Texas v. Cobb, 532 U.S. 162 (2001)
While Raymond Cobb was under arrest for an
unrelated offense, he confessed to officers that he

24
committed a home burglary. However, he denied
knowing about a woman and child who had disappeared
from the burgled home. Cobb was indicted for burglary,
and counsel appointed to represent him. He later
confessed to his father that he had killed the woman
and child during the burglary, and his father then
contacted the police. While in custody, Cobb waived
his Miranda rights and confessed to the murders. He
was convicted of capital murder and sentenced to
death. On appeal to the Texas Court of Criminal
Appeals, he argued that his confession should have
been suppressed because it was obtained in violation
of his Sixth Amendment right to counsel. Specifically,
he argued his right to counsel attached when counsel
was appointed in the burglary case. The court reversed
and remanded, holding that once the right to counsel
attaches to the offense charged, it also attaches to
any other offense that is very closely related factually
to the offense charged. This Court reversed that
holding and held that the Sixth Amendment right to
counsel is offense specific and therefore did not bar
police from interrogating Cobb regarding the murders,
making his confession admissible. Texas v. Cobb, 532
U.S. 162, 167-168 (2001).
a)

Ninth Circuit Denial in this Case

In denying Flores relief in this case, The Court of
Appeals’ cited Texas v. Cobb. The court held that
Flores’ Sixth Amendment right to counsel on the
murder and attempted murder charges did not attach,
as the informant questioned Flores regarding uncharged conduct which was unrelated to the drug
charge for which he was charged and detained.
App.3a.

25
Unlike Cobb, Flores did not waive his Miranda
rights and voluntarily confess. Flores was not
questioned pursuant to well-understood rules and
procedures, he was threatened! Flores choices were:
to confess or die.
Further, Flores reasonably believed he was being
threatened by a high-ranking Mexican Mafia member,
not a government agent. Before Cobb confessed, officers
informed him of his rights to counsel and to stay
silent. The striking differences between this case and
Cobb establishes that Flores’ conviction must be
reversed to maintain the integrity of our Constitution.
Flores had no reason or desire to voluntarily confess to the crime. He was concerned that the officers
might hear their conversation. App.62a. The informant assured Flores that the officers could not hear
their conversation and even stated that it would
be “entrapment” if they did so, thereby displaying
his knowledge and experience as a Mexican Mafia
politic. Ibid.
There is clearly a yawning gap between Cobb
and the other cases in the Massiah line that must be
closed. That gap can be closed where this Court finds
that the offense specific rule of Cobb can be applied if
the defendant’s confession to an uncharged crime
was voluntarily made within the rules of the Miranda
line of cases.
The government should not intentionally evade
a defendant’s right to counsel and due process by
charging him with a minor crime, holding him in jail,
and then inserting an informant to threaten his life
to elicit a confession on a more serious crime for
which he is the main suspect. Flores would have never

26
provided a falsified confessed to the crime if he
believed that he was speaking to a government agent.
He confessed to the crime for which he had not been
charged only because his alternative was assassination
by the Mexican Mafia. The greater good theory cannot
apply where the government obtains a conviction
through coercing a defendant to confess. This offends
all ethical notions of public policy and violates the
rights to due process and counsel. This Court should
correct the Ninth Circuit’s error and remand the case
to the trial court.
2. United States v. Henry, 447 U.S. 264 (1980)
In 1980, this Court applied Massiah to jailhouse
informants. United States v. Henry. held that the
government’s use of an informant who knowingly elicits
incriminating information from a jail inmate after the
inmate had been indicted violates the Sixth Amendment.
Henry was arrested, indicted and held in custody
for bank robbery. Counsel was appointed for him on
that charge. A paid informant was placed in custody
with Henry, but expressly instructed not to initiate
any conversations with him. The informant and Henry
engaged in conversations during which Henry divulged
facts about the robbery. The informant testified about
these conversations at Henry’s trial, and Henry was
convicted.
This Court reversed, finding that the Government
had “‘deliberately elicited’ incriminating statements
from Henry within the meaning of Massiah.” Id. at
270. The decision emphasized several facts: the
informant was acting for the Government and therefore
had an incentive to produce useful information; Henry

27
was unaware of the informant’s role as an informant;
and, Henry and the informant were incarcerated
together at the time of the conversations. With respect
to this last fact, the Court reasoned that “confinement
may bring into play subtle influences that will make
[an individual] particularly susceptible to the ploys of
undercover Government agents . . . ” These influences
include an informant’s “apparent status as a person
sharing a common plight.” Id. at 274.
In Henry, this Court declared this new standard:
that the government is responsible for acts that it
“must have known” will lead to rights violations. Consequently, the Court held, “[By] intentionally creating a
situation likely to induce Henry to make incriminating
statements without the assistance of counsel, the
Government violated Henry’s Sixth Amendment right
to counsel.” Ibid.
It is critical in analyzing Henry to recognize that
the police and prosecutor cleverly sought to avoid the
rules of Massiah by telling the informant not to
directly question Henry about the robbery. Applying
Cobb far too broadly has allowed police and prosecutors
to make a mockery of the protections and strictures
described in Massiah . Police and prosecutors will
continue to use crafty charging practices that may be
technically be within the bounds of Massiah, but that
deprive defendants of a meaningful right to counsel
and justice.
The Government selected the informant in this
case knowing he would obtain a coerced confession
from Flores. The informant was not only effective in
this case and Dominguez, but in many other cases.
This informant is highly experienced, has earned
over two hundred and fifty thousand dollars, and has

28
avoided twenty-one years of imprisonment for his
services. The informant’s placement in a cell adjacent
to Flores’ deliberately created a situation where Flores
would make incriminating statements about the
uncharged act.
Flores, like Henry, could not have known or
suspected that he was speaking with a government
agent, not another inmate. The stratagem used against
Flores was much more sophisticated than that used
against Henry. Flores reasonably believed he was
negotiating with a high-ranking Mexican Mafia member who credibly threatened Flores with death if he
did not confess. Further, Flores’ was young and had
previously only been held in juvenile facilities, never
a county jail. This made him especially susceptible to
the manipulative wiles of a paid police informant Id.
at 274.
Flores was a confirmed suspect in a murder
investigation. Why should the police and prosecution
be allowed to circumvent Flores’ right to counsel and
substantive due process on that crime by charging
him with an unrelated drug crime and confining him
to a cell with an experienced informant who threatened
Flores with assassination, with the sole intention of
coercing incriminating statements from him about
the murder? These actions violate rights which were
intended by the constitution.
3. Maine v. Moulton, 474 U.S. 159 (1985)
In Moulton, two defendants were indicted for a
series of thefts. Moulton’s codefendant had secretly
agreed to become an informant. The informant recorded
conversations with Moulton in which the two discussed
their criminal exploits and possible alibis. Moulton

29
made various incriminating statements regarding both
the thefts for which he had been charged and additional
crimes. In a superseding indictment, Moulton was
charged with the original crimes and the additional
crimes Moulton discussed with the informant. At trial,
the State introduced portions of the conversations,
and Moulton was convicted of three of the originally
charged thefts and one count of burglary. Moulton
appealed to the Supreme Judicial Court of Maine,
arguing that introduction of the recorded conversation
violated his Sixth Amendment right to counsel.
This Court quoted the decision of the Maine
high court:
Those statements may be admissible in the
investigation or prosecution of charges for
which, at the time the recordings were made,
adversary proceedings had not yet commenced. But as to the charges for which
Moulton’s right to counsel had already
attached, his incriminating statements should
have been ruled inadmissible at trial, given
the circumstances in which they were
acquired. Moulton, 474 U.S. at 168 (quoting
State v. Moulton, 481 A.2d 155, 161 (1984)).
This Court affirmed the Maine Supreme Judicial
Court’s exclusion of Moulton’s statements. This Court
specifically held that the police intentionally circumvented Moulton’s Sixth Amendment right to counsel
by using Moulton’s co-defendant as an informant, as
they knew that Moulton would make incriminating
statements to him. In seeking evidence pertaining to
pending charges, the Government’s investigative
powers are constrained by the accused’s Sixth Amendment rights. “The “express purpose” of their meeting

30
was to discuss the pending charges” Id. at 177.
Further, by concealing the fact that the informant was
an agent of the State, the police denied Moulton the
opportunity to avail himself of the assistance of counsel
guaranteed by the Sixth Amendment. Id. Thus, the
government has an affirmative obligation not to
circumvent the protection afforded by the right to
counsel. Id. at 171.

Moulton noted that the primary concern of the
Massiah line of decisions is abuse of undisclosed
interrogation by a police surrogate who uses techniques
that are the equivalent of direct police interrogation.
Since the Sixth Amendment is not violated whenever—
by luck or happenstance—the State obtains incriminating statements from the accused after the right to
counsel has attached, a defendant does not establish
a violation of that right simply by showing that an
informant, either through prior arrangement or
voluntarily, reported his incriminating statements to
the police. Rather, the defendant must demonstrate
that the police and their informant did not merely
listen to the defendant, but intentionally and actively
elicited incriminating remarks. Kuhlmann v. Wilson,
477 U.S. 436, 459 (1986).
There is no significant difference between the
Sixth Amendment violation in this case and Moulton,
other than that the defendant in Moulton had “pending
charges.” However, this difference is technical or
apparent, not substantive. For all intents and purposes,
Flores was in custody only because he was a murder
suspect. Charges were merely formality. Allowing
the police and prosecutors to easily circumvent the
Sixth Amendment by postponing the filing of charges
that will almost certainly be filed eviscerates the right.

31
The police and prosecutors know that a defendant only
has the right to counsel after the state has cleverly
violated that right by manipulating the time of
incarcerating and charging a defendant for a crime.
Moulton, like Flores, confessed to crimes for which
he had not been formally charged. Moulton felt
comfortable, was not threatened, and divulged details
of the charged and uncharged crimes he committed
with his co-defendant. In stark contrast, Flores was
credibly threatened with death if he did not confess
to the informant. Flores was not speaking with a
confidant, or even a co-defendant. Flores was speaking
with a stranger in an adjacent cell whom he reasonably
believed was a high-ranking Mexican Mafia member.
This apparent Mexican Mafia member threatened
Flores’ life if he refused to confess to the murders.
The Mexican Mafia were “waiting for” Flores. Adding
markedly Flores’ fear, the informant told him that the
shooting victim was the nephew of a high-ranking
Mexican mafia member who was housed in the Pelican
Bay supermax prison. App.61a. Flores was frightened
enough to say that he hoped that the victim’s uncle
would not “use his power” and position to kill him.
Ibid.
Although Moulton spoke to his friend and was
not coerced, this Court found that Moulton’s right to
counsel had vested for the pending/uncharged crimes
because the government used unethical tactics to obtain
incriminating statements about crimes for which
charges were obviously pending. The government
thereby stripped Moulton of his rights. An equivalent
analysis must be applied to Flores.
The severity of the government’s manipulation
of Flores clearly violated his Sixth Amendment right

32
to counsel and his Fourteenth Amendment substantive
due process.] The plan of the police and prosecutors was
fully calculated, as each word the informant used
was hand-picked. The officers placed the informant
in an adjacent cell for the express purpose of obtaining
a confession from Flores to the pending charges of the
murder, not the drug case for which Flores had been
charged and jailed. Flores’ Sixth Amendment rights
were violated because the State obtained incriminating
statements by circumventing the Flores’ right to have
counsel present in a confrontation between him and
the informant, a state agent.
4. Kuhlmann v. Wilson, 477 U.S. 436 (1986)
In Kuhlmann, this Court held that the government
does not offend the Sixth Amendment by using a
passive informant who asks no questions of the
accused, settling the “listening post” question that
Henry had left open. Kuhlmann was arraigned and
confined in a jail cell with another prisoner who,
unknown to him, had agreed to act as a police informant. Kuhlman made incriminating statements which
the informant reported. Kuhlman held that an
informant’s behavior must constitute active elicitation
of incriminating statements to violate the Sixth
Amendment right to counsel (Henry, 447 U.S. at 271;
Massiah, 377 U.S. at 204.)
How can we logically and legally differentiate
between the conflicting rules from Moulton and
Kuhlmann? In one case the government violates the
Sixth Amendment by using an informant to elicit a
confession after the right to counsel has attached,
while in another the government intentionally focuses
suspicion on a defendant for major crime, but charges

33
and jails the defendant only for a minor crime, and
then places an informant with the defendant to elicit
a confession on the major crime in circumvention of
the right to counsel?
As noted above, Moulton and Kuhlman establish
that a Sixth Amendment violation requires the defendant to demonstrate that the police and their informant
did not merely listen to the defendant, but actively
elicit incriminating remarks. See, Kuhlman, 477 U.S.
at 459. (citations omitted).
Here, the informant certainly actively obtained
incriminating statements from Flores. He did so by
credibly threatening that the Mexican Mafia-the deadliest organized gang in California—would assassinate
Flores if he did not confess to murder. Dominguez’s
conviction was properly overturned because his
confession was coerced and inadmissible, and Flores’
conviction should be reversed as well.
5. Flores’ Sixth Amendment Right to Counsel
and His Fourteenth Amendment Due Process
Rights Were Violated.
This case reveals the need for this Court to fully
review and reconcile the Massiah line of cases in the
context of confessions coerced from criminal defendants
by mercenary confidential informants. This critical need
arises because police and prosecutors have learned to
circumvent the right to counsel and the right to
substantive due process by appearing to technically
stay within the bounds of this Court’s decisions, while
blatantly violating the spirit of justice and the specific
constitutional provisions. Application of the following
simple test will conform the technical provisions of
the law with the principles that must guide the law.

34
If the answer to each of the following questions is
yes, then the right to counsel attaches immediately
to the uncharged act.
1.

Is the informant a government agent?

2.

Was the defendant conscious that the informant was a government agent?

3.

If there are pending/uncharged offenses, was
the sole purpose of the interrogation to use
unethical methods to deliberately elicit a
confession for the uncharged act in order to
circumvent the sixth amendment right to
counsel?

4.

Was the informant actively participating in
eliciting a confession by using coercion and/
or threating the defendant’s life?

5.

Was the defendant confined in a cell while
speaking to the (jailed) informant thereby
making them more susceptible to the ploys?

The answer to all of these questions in Flores is,
“Yes.” Flores was coerced into providing a confession
to save own life. In a case where the police and
prosecution have determined that an in-custody
defendant is the suspect in a crime, but intentionally
do not charge the defendant, use of an active informant
is a deliberate violation of substantive due process
and the defendant’s right to counsel. This type of
police interrogation fully violates principles at the
core of our Constitution and liberty generally. Where
police can circumvent a defendant’s rights as they
did in this case, Sixth Amendment and Fourteenth
Amendment rights are illusory.

35
Regard for the requirements of the Due
Process Clause “inescapably imposes upon
this Court an exercise of judgment upon the
whole course of the proceedings [resulting
in a conviction] in order to ascertain whether
they offend those canons of decency and
fairness which express the notions of justice of
English-speaking peoples even toward those
charged with the most heinous offenses.”
Malinski v. New York, supra, at 416-417.
These standards of justice are not authoritatively formulated anywhere as though they
were specifics. Due process of law is a summarized constitutional guarantee of respect
for those personal immunities which, as Mr.
Justice Cardozo twice wrote for the Court,
are “so rooted in the traditions and conscience
of our people as to be ranked as fundamental,”
Snyder v. Massachusetts, 291 U.S. 97, 105
(1934), or are “implicit in the concept of
ordered liberty.” Palko v. Connecticut, 302
U.S. 319, 325 (1937). Rochin v. California,
supra, 342 U.S. 165, 169.
Police and prosecutors cannot be given power to
determine when a defendant’s right to counsel is
violated. This Court must overturn Flores’ conviction
in order to uphold our Constitution.

36

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
ORLY AHRONY, ESQ.

COUNSEL OF RECORD

AHRONY APPEALS LAW GROUP

401 WILSHIRE BLVD, 12TH FLOOR
SANTA MONICA, CA 90401
(310) 743-7830
ORLY@AHRONYAPPEALS.COM

COUNSEL FOR PETITIONER
SEPTEMBER 11, 2020

